"~-l'~4""'C~'S'OS.




( f:
't+'¡o\
     ~ir\t"Ja
                              DEPARTMENT
                              DEPARTMENTOF
                                         OFHEALTH
                                           HEALTH&.
                                                  &. HUMAN
                                                     HUMAN SERVICES
                                                           SERVICES                                             Office of Inspector
                                                                                                                          Inspector General


                                                                                                                Washington, D.C.
                                                                                                                Washington,
                                                                                                                                    General


                                                                                                                            D.C. 20201
                                                                                                                                 20201




                                                                  AUG 11 00 2009
                                                                  AUG        20


                     TO:
                     TO: Charlene  Frizzera
                              Charlene Frizzera
                                      Acting Administrator



                     FROM:-1tf
                     FROM:-1tf'-Joseph
                                      ~~
                                      Centers for Medicare &

                                      ~~
                                  JosephE.E.Vengrin
                                            Vengrin
                                                           & Medicaid Services
                                                                      Services



                                      Deputy Inspector General for Audit Services
                                                                         Services


                     SUBJECT: Review of of
                                Review  Duplicate  Capitation
                                           Duplicate CapitationPayments
                                                                PaymentstotoMedicare
                                                                             MedicareAdvantage
                                                                                      AdvantageOrganizations
                                                                                                 Organizations
                                and Programs of
                                             of All-Inclusive Care for the Elderly Organizations
                                (A-07-08-01052)
                                (A-07-08-01052)


                     The attached final report provides the results of          of our review of
                                                                                               of duplicate capitation payments to
                     Medicare Advantage organizations and Programs of                of All-Inclusive Care for the Elderly (PACE)
                     organizations.
                     organizations.           (For
                                    (For purposes of 
purposes of this report, Medicare Advantage organizations and PACE

                     organizations are referred to collectively as "organizations.")

                     At the beginning of each month, the Centers for Medicare &    & Medicaid Services (CMS) makes a
                     capitation payment to organizations for medical services provided to each individual enrolled in
                     a Medicare
                       Medicare Advantage
                                  Advantage oror PACE
                                                 PACE plan.   CMS may
                                                       plan. CMS    may make
                                                                         make only
                                                                                only one capitation payment per month
                     for each Medicare
                               Medicare enrollee. Both before and after making a payment, CMS follows a validation
                                         enrollee. Both  before and after  making
                     process to
                              to ensure the
                                        the accuracy of the
                                                        the payment.
                                                            payment. IfIfthe
                                                                          the validation
                                                                              validation process
                                                                                         process identifies
                                                                                                 identifies an
                                                                                                            an inaccurate
                                                                                                               inaccurate
                     payment after the payment has been made, CMS makes a retroactive adjustment to correct the
                     payment   amount.
                     payment amount.



                         objective was
                     Our objective was to
                                       to determine whether CMS made only one capitation payment per month for
                     each Medicare enrollee.

                      the approximately
                 Of the     approximately 218        218 million
                                                            milion capitation payments totaling
                                                                                           totaling approximately
                                                                                                    approximately $158
                                                                                                                   $158billion
                                                                                                                        bilion that
                 CMS made
                 CMS       made for for Medicare enrollees from January 2006 through March 2008, only 373 payments
                 totaling     $300,894
                 totaling $300,894            were
                                   were duplicate      duplicate
                                                  payments for 1 month payments
                                                                       of 
                                coverage. Although
                                                                                for 1 month of health care coverage. Although CMS
                 had correctly paid organizations for the vast majority of enrollees, the validation process that
                 CMS
                 CMS used  used to to ensure
                                       ensure the the accuracy of payments did not identify alJd   and prevent these improper
                 payments.

                 We recommend that CMS:

                         •.    recoupthe
                              recoup  the $300,894
                                          $300,894 in
                                                   in improper
                                                      improper payments;
                                                               payments;
Page 2 – Charlene Frizzera


   •   determine whether enhancements to its validation process would be cost effective and, if
       so, implement the enhancements; and

   •   periodically review, on a postpayment basis, payments made to organizations to detect
       and recover any duplicate payments.

In written comments on our draft report, CMS concurred with our recommendations and
described the corrective actions that it was taking or planned to take.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, this report will be posted on the Internet at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call me,
or your staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov. Please refer
to report number A-07-08-01052 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL



     REVIEW OF DUPLICATE
   CAPITATION PAYMENTS TO
    MEDICARE ADVANTAGE
ORGANIZATIONS AND PROGRAMS
  OF ALL-INCLUSIVE CARE FOR
 THE ELDERLY ORGANIZATIONS




                    Daniel R. Levinson
                     Inspector General

                       August 2009
                      A-07-08-01052
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices

     THIS REPORT IS AVAILABLE TO THE PUBLIC
               at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Under Medicare Part C, the Centers for Medicare & Medicaid Services (CMS) contracts with
Medicare Advantage organizations and approves their plans to provide health care coverage to
Medicare enrollees. In addition, CMS contracts with organizations under Programs of All-
Inclusive Care for the Elderly (PACE) to provide comprehensive medical and social services to
the elderly. For purposes of this report, Medicare Advantage organizations and PACE
organizations are referred to collectively as “organizations.”

At the beginning of each month, CMS makes a capitation payment to organizations for medical
services provided to each individual enrolled in a Medicare Advantage or PACE plan. Federal
regulations state that an individual may be enrolled in only one Medicare Advantage or PACE
plan at any given time. In addition, Federal law states that an individual may not be enrolled
simultaneously in both a Medicare Advantage plan and a PACE plan.

CMS may make only one capitation payment per month for each Medicare enrollee. Both before
and after making a payment, CMS follows a validation process to ensure the accuracy of the
payment. If the validation process identifies an inaccurate payment after the payment has been
made, CMS makes a retroactive adjustment to correct the payment amount.

OBJECTIVE

Our objective was to determine whether CMS made only one capitation payment per month for
each Medicare enrollee.

SUMMARY OF FINDING

Of the approximately 218 million capitation payments totaling approximately $158 billion that
CMS made for Medicare enrollees from January 2006 through March 2008, only 373 payments
totaling $300,894 were duplicate payments for 1 month of health care coverage. Although CMS
had correctly paid organizations for the vast majority of enrollees, the validation process that
CMS used to ensure the accuracy of payments did not identify and prevent these improper
payments.

RECOMMENDATIONS

We recommend that CMS:

   •   recoup the $300,894 in improper payments;

   •   determine whether enhancements to its validation process would be cost effective and, if
       so, implement the enhancements; and




                                                i
   •   periodically review, on a postpayment basis, payments made to organizations to detect
       and recover any duplicate payments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
described the corrective actions that it was taking or planned to take. CMS’s comments are
included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Medicare Advantage Program ......................................................................................1
         Programs of All-Inclusive Care for the Elderly.............................................................1
         Capitation Payments to Medicare Advantage Organizations and
           Programs of All-Inclusive Care for the Elderly Organizations .................................1

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................2
         Objective ........................................................................................................................2
         Scope..............................................................................................................................2
         Methodology ..................................................................................................................2

FINDING AND RECOMMENDATIONS.................................................................................3

      FEDERAL REQUIREMENTS..............................................................................................3

      DUPLICATE PAYMENTS...................................................................................................4

      RECOMMENDATIONS.......................................................................................................4

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........................4

APPENDIX

      CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iii
                                      INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33 § 4001, Social Security Act (the Act),
§ 1851(a), 42 U.S.C. § 1395w-21, established Medicare Part C to offer beneficiaries managed
care options through the Medicare+Choice program. The Medicare Prescription Drug,
Improvement, and Modernization Act of 2003, P.L. No. 108-173 § 201, 42 U.S.C.
§ 1395w-21 note, revised Medicare Part C and changed the name of the Medicare+Choice
program to the Medicare Advantage program. The Centers for Medicare & Medicaid Services
(CMS) contracts with Medicare Advantage organizations and approves their plans to provide
health care coverage to Medicare enrollees. A Medicare Advantage organization may offer more
than one plan.

Programs of All-Inclusive Care for the Elderly

Section 1894 of the Act, 42 U.S.C. § 1395eee, established the Programs of All-Inclusive Care for
the Elderly (PACE), which is an optional benefit under both Medicare and Medicaid. CMS
contracts with PACE organizations to provide comprehensive medical and social services to the
elderly. The Act requires PACE organizations to offer all items and services provided under the
Medicare program.

Capitation Payments to Medicare Advantage Organizations and
Programs of All-Inclusive Care for the Elderly Organizations

At the beginning of each month, CMS makes a capitation payment to Medicare Advantage
organizations for medical services provided to each enrollee. Similarly, CMS makes a capitation
payment at the beginning of each month to PACE organizations for medical and social services
provided to each Medicare enrollee. Because of the similarities in payment methodologies for
these two programs, this report collectively refers to Medicare Advantage organizations and
PACE organizations as “organizations.”

Federal regulations (42 CFR §§ 422.50(b) and 460.90(b)) state that an individual may be
enrolled in only one Medicare Advantage or PACE plan at any given time. Section
1894(1)(B)(i) of the Act provides that an individual may not be enrolled simultaneously in both a
Medicare Advantage plan and a PACE plan.

To calculate a capitation payment, CMS considers each enrollee’s most currently available
demographic and health status information. If CMS receives demographic or health status
information on a particular enrollee that would change the previous month’s payment, it makes
retroactive adjustments to correct the payment level. CMS adjusts payments monthly, on both a
prospective basis and a retrospective basis to the beginning of the year. Thus, CMS routinely
makes multiple payment adjustments. However, CMS may make only one capitation payment
per month for each Medicare enrollee.



                                               1
CMS records payments made to organizations in the Medicare Advantage Prescription Drug
(MARx) system. The payment history in the MARx system shows the months for which CMS
made a payment, including adjustments, to an organization for each enrollee.

CMS follows the policies and procedures specified in the “Medicare Advantage Cycle Memo” to
ensure the accuracy of monthly capitation payments both before and after making the payments.
These procedures include validating the accuracy of data transferred to the MARx system from
CMS data systems, validating the accuracy of the payment calculations as they apply to the
specific organization, and tracking payment issues through resolution. If the validation process
identifies inaccurate payments after the capitation payments have been made, CMS makes
retroactive adjustments to correct the payment levels.

During our audit period, January 2006 through March 2008, CMS made approximately
218 million capitation payments totaling approximately $158 billion to organizations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CMS made only one capitation payment per month for
each Medicare enrollee.

Scope

We reviewed the records for all of the approximately 218 million Medicare Part C and PACE
payments in the MARx system for the period January 2006 through March 2008. We identified
760 instances totaling $569,372 in which the MARx system showed that CMS had made two
capitation payments on behalf of an enrollee for 1 month of coverage (duplicate payments).
Because CMS made retroactive adjustments through its validation process to correct 387 of the
duplicate payments, we limited our review to the 373 duplicate payments that remained
uncollected as of June 2008.

We reviewed the internal controls at CMS to the extent necessary to accomplish the audit
objective. We did not review or test the accuracy or completeness of the MARx system.

We performed our fieldwork from February through August 2008.

Methodology

To accomplish our objective, we:

        •   reviewed applicable Federal laws and regulations and CMS’s policies and procedures,

        •   accessed the MARx system to identify duplicate payments for the audit period,




                                               2
       •   discussed the results of our review with CMS officials and provided them with
           detailed data that identified each of the duplicate payments, and

       •   calculated the dollar amount of duplicate payments that remained uncollected as of
           June 2008.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

Of the approximately 218 million capitation payments totaling approximately $158 billion that
CMS made for Medicare enrollees from January 2006 through March 2008, only 373 payments
totaling $300,894 were duplicate payments for 1 month of health care coverage. Although CMS
had correctly paid organizations for the vast majority of enrollees, the validation process that
CMS used to ensure the accuracy of payments did not identify and prevent these improper
payments.

FEDERAL REQUIREMENTS

Federal regulations (42 CFR § 422.304(a)) state that “. . . CMS makes advance monthly
payments . . . for coverage of original fee-for-service benefits for an individual in an MA
[Medicare Advantage] payment area for a month.” (Emphasis added.) In addition, 42 CFR
§ 422.50(b) states that “[a]n MA eligible individual may not be enrolled in more than one MA
plan at any given time.”

Federal regulations (42 CFR § 460.180(a)) state that “. . . CMS makes a prospective monthly
payment to the PACE organization of a capitation amount for each Medicare participant in a
payment area based on the rate it pays to a Medicare Advantage organization.” (Emphasis
added.) Also, 42 CFR § 460.90(b) states that a participant, “. . . while enrolled in a PACE
program, must receive Medicare and Medicaid benefits solely through the PACE organization.”
Accordingly, 42 CFR § 460.154(i) states that if an eligible participant wants to enroll in a PACE
plan, he or she must sign an enrollment agreement that contains:

       [n]otification that enrollment in PACE results in disenrollment from any other
       Medicare or Medicaid prepayment plan or optional benefit. Electing enrollment
       in any other Medicare or Medicaid prepayment plan or optional benefit, including
       the hospice benefit, after enrolling as a PACE participant is considered a
       voluntary disenrollment from PACE.




                                                3
DUPLICATE PAYMENTS

In 373 instances, CMS made two capitation payments to organizations for 1 month of health care
coverage for a particular enrollee. Specifically, for the period January 2006 through March
2008, CMS made 746 capitation payments for 373 months of health care coverage under
Medicare Advantage or PACE plans. 1 These duplicate payments consisted of payments to two
different organizations on behalf of a single individual or two payments for different plans within
one organization on behalf of a single individual.

Because Federal regulations specify that individuals may be enrolled in no more than one
Medicare Advantage or PACE plan at any given time and that only one capitation payment per
month may be made for each Medicare enrollee, the 373 duplicate payments totaling $300,894
were improper.

In well over 99 percent of the payments during our audit period, CMS made only one monthly
capitation payment for each enrollee, as required. However, CMS officials explained that the
validation process that they used to ensure the accuracy of payments did not identify and prevent
all duplicate payments.

RECOMMENDATIONS

We recommend that CMS:

    •   recoup the $300,894 in improper payments;

    •   determine whether enhancements to its validation process would be cost effective and, if
        so, implement the enhancements; and

    •   periodically review, on a postpayment basis, payments made to organizations to detect
        and recover any duplicate payments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
described the corrective actions that it was taking or planned to take. Specifically, CMS stated
that it would recoup the duplicate payments and that it had implemented or was finalizing
appropriate controls for its validation process to minimize duplicate payments.

CMS’s comments are included in their entirety as the Appendix.




1
 Of the 373 duplicate capitation payments, 345 were payments to Medicare Advantage organizations and 28 were
payments to PACE organizations.


                                                      4
APPENDIX
APPENDIX
 Page 1 of 2
APPENDIX
 Page 2 of 2
